No.
IN THE SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020

TERESA M. GRAHAM,
Petitioner,
v.
SERGEANT SHANNON L. BARNETTE,
OFFICER AMANDA SANCHEZ, OFFICER MOHAMED NOOR,
AND CITY OF MINNEAPOLIS,
Respondents.

CERTIFICATE OF COMPLIANCE

Pursuant to Supreme Court Rule 33.1(h), I hereby certify that the accompanying
Petition for Writ of Certiorari in the above-captioned case complies with the word count
limitations. It contains 4501 words.

Date: December 28, 2020

s/Jordan S. Kushner
Jordan S. Kushner

